U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 25, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: William Leroy Sanders v. United States, No. 20-8053
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 13, 2021.
The government’s response is now due, after two extensions, on September 1, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 1, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8053
SANDERS, WILLIAM LEROY
USA

NOVA DANIELLE JANSSEN
FEDERAL PUBLIC DEFENDER, NORTHERN &
SOUTHERN DISTRICTS OF IOWA
400 LOCUST STREET
SUITE 340
DES MOINES, IA 50309
515-309-9610
NOVA_JANSSEN@FD.ORG

